2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OQCKLE

Le g al Brie fs E-Mail Address:

contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-638
NELIDA MARIBEL DIAZ JUAREZ,
AND NALBERTA BRAVO DIAZ,
Petitioners,

Vv.
COMMONWEALTH OF KENTUCKY CABINET
FOR HEALTH AND FAMILY SERVICES,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of December, 2019, send
out from Omaha, NE 2 package(s) containing * copies of the BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:
THOMAS E. EDGE
Counsel of Record
319 York Street
Newport, Kentucky 41071
(859) 491-7700
tedge@campbellcountyky.gov

Subscribed and sworn to before me this 17th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

red wv E Elle Qudiew-h. Chk

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39200
SERVICE LIST
Counsel for Petitioners:

Tejinder Singh

Goldstein & Russell, P.C.

7475 Wisconsin Ave., Suite 850
Bethesda, MD 20814
tsingh@goldsteinrussell.com
(202) 362-0636

*3 copies

Teresa Cunningham
Cunningham & Assoc.

2600 Burlington Pike, Suite 340
Burlington, Kentucky 41005
tcunningham@isoc.net

(859) 371-7300

*1 copy
